                             INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704



                                                                      April 26, 2002

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               NA VAL INSPECTOR GENERAL
               COMMANDER, NAVAL SUPPLY SYSTEMS COMMAND

SUBJECT: Inspector General of the Department of Defense, Report No. D-2002-045,
         "Abnormal Inventory Balances for the Navy Working Capital Fund, "
         January 30, 2002                        '


      We are revising the subject report. Please make the following pen and ink
changes to the original copy previously distributed to you.

       •   Finding, page 5, last paragraph, last sentence:

               Change the word "example" to "illustration."

       •   Finding, page 6, Table 2:

               Change the word "example" to "illustration."

       •   Finding, page 6, last paragraph, last sentence:

               Change the word "example" to "illustration."

       •   Finding, page 7, Table 3:

               Change the word "example" to "illustration."

        We are making these changes to clarify that the hypothetical examples provided
in the report are intended to illustrate the problems identified throughout the audit. If
you have any questions on the changes, please contact Mr. Hoa H. Pham at
(703) 6049588 (DSN 664-9588) (hpham@dodig.osd.mil).


                                                                 "'
                                         ~~1-~
                                         Thomas F. Gimble
                                               Acting
                                  Deputy Assistant Inspector General
                                            for Auditing
   January 30, 2002




Financial
Management
Abnormal Inventory Balances for
the Navy Working Capital Fund
(D-2002-045)




              Department of Defense
          Office of the Inspector General

Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
GLAC                  General Ledger Account Code
MFCS                  Material Financial Control System
NAVICP                Naval Inventory Control Point
WIP                   Work-In-Process
                       Office of the Inspector General, DoD
Report No. D-2002-045                                                January 30, 2002
  (Project No. D2001FC-0140.001)

                     Abnormal Inventory Balances for the
                        Navy Working Capital Fund

                                   Executive Summary

Introduction. Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994” October 13, 1994, requires DoD and other Government
agencies to prepare annual audited financial statements. This report addresses the
abnormal (negative) balances inventory balances reported in the Material Financial
Control System by the Naval Inventory Control Point. Inventory is the most significant
asset of the Navy Working Capital Fund. As of September 30, 2001, the Navy Supply
Management reported Inventory Held for Sale, Net as $15.9 billion.

Objectives. The audit objective was to determine whether the Naval Inventory Control
Point (Philadelphia and Mechanicsburg) reconciled general ledger accounts for
Inventory On-Hand and Inventory Work-In-Process with the storage activities’ logistic
records; and whether research was performed to correct differences and abnormal
balances. We also evaluated the adequacy of the Naval Inventory Control Point
management control program as it related to the audit objective.

Results. The Naval Inventory Control Point reported $438 million of abnormal
balances in the March 31, 2001, financial records for the Mechanicsburg and
Philadelphia sites. The abnormal balances were recorded in Inventory On-Hand, and
Inventory Work-In-Process. During the audit, personnel at the Mechanicsburg and
Philadelphia sites took actions to correct $184.6 million of abnormal balances for both
the Inventory On-Hand and Inventory Work-In-Process general ledger accounts. The
remaining $253.4 million in abnormal balances required extensive research to
determine when and how the abnormal balances occurred, and therefore, will need to
be corrected at a later date. However, until improvements in the reconciliation process
and internal controls are made, the problems will recur and will adversely affect
management decisions. In addition, note 9A to the FY 2001 financial statements
prepared for the Navy Working Capital Funds could be misstated.

Summary of Recommendation. We recommend that the Commander, Naval Supply
Systems Command, establish appropriate internal controls to ensure that financial
inventory records are periodically evaluated for unusual or questionable conditions.
We also recommend that Naval inventory reconciliation procedures be revised to ensure
that reconciliations are performed at the detailed level and abnormal and unusual
balances found in the financial records are fully researched and documented. Further,
we recommend the Commander, Naval Supply System Command, review and
determine staff needed for the reconciliation to ensure that the revised reconciliation is
fully implemented. We recommend that the Naval Inventory Control Point,
Mechanicsburg and Philadelphia sites, continue to research, resolve, and fully
document the corrective actions for the remaining abnormal balances.

Management Comments. The Commander, Naval Systems Supply Command, did not
submit comments for the draft report dated November 16, 2001. Therefore, we request
that the Commander provide comments in response to the final report by
March 1, 2002.




                                             ii
Table of Contents

Executive Summary                              i


Introduction
     Background                               1
     Objectives                               1

Finding
     Reporting Abnormal Inventory Balances    3

Appendixes
     A. Audit Process                         10
          Scope                               10
          Methodology                         10
          Management Control Program Review   11
          Prior Coverage                      11
     B. Report Distribution                   12
Background
     Public Law 101-576, the “Chief Financial Officers Act of 1990,”
     November 15, 1990, as amended by Public Law 103-356, the “Federal
     Financial Management Act of 1994,” October 13, 1994, requires DoD and other
     Government agencies to prepare annual financial statements. The Inspector
     General, DoD, is responsible for auditing DoD agency-wide financial
     statements. The Navy Working Capital Fund is one of the eight DoD
     Component reporting entities within the Department of Defense required by the
     Office of Management and Budget to prepare stand-alone audited financial
     statements. As of March 31, 2001, the Naval Inventory Control Point reported
     approximately $32.8 billion (standard price) as the inventory of reparable and
     consumable items.

     Naval Inventory Control Point. The Naval Inventory Control Point
     (NAVICP) manages inventory that is stored at DoD and Navy Depots, on Navy
     ships, and at contractor sites around the world. The NAVICP is one
     organization with two locations in Pennsylvania—Mechanicsburg and
     Philadelphia. The NAVICP performs inventory accounting functions for Navy
     Working Capital Fund material managed by NAVICP. Each month, NAVICP
     performs inventory reconciliations between the logistic records and financial
     records.

     Guidance for Reconciling Inventory Line Items. NAVSUP P-723, “Navy
     Inventory Integrity Procedures,” April 2000, requires the Inventory Accuracy
     Department to ensure accurate maintenance of inventory records and the
     financial reflection of inventory records in the Master Data File and Financial
     Inventory Control Ledger respectively. The regulation also requires that the
     Inventory Accuracy Department perform trend analysis of various areas to
     identify, develop, and implement required changes to resolve problem areas that
     impact inventory accuracy.

     Material Financial Control System. The Material Financial Control System
     (MFCS) records financial data at the inventory control point and provides input
     to the Defense Finance and Accounting Service Central Data Base for the
     preparation of the financial statements. The MFCS is the financial control
     application of the Uniform Inventory Control Program System. Three modules
     comprise the system: Inventory Accounting and Billing (PX06); Allotment
     Accrual Accounting (PX02); and Expenditure Processing (PX04). The MFCS
     is a mixed system providing both logistical and financial support. The ST1070
     is the asset record contained within the Inventory Accounting and Billing
     module (PX06) and it is used during the inventory reconciliation process.

Objectives
     The objective was to determine whether the Naval Inventory Control Point
     (Philadelphia and Mechanicsburg) reconciled General Ledger Accounts
     Inventory On-Hand and Inventory Work-In-Process (WIP) with the storage

                                        1
activities’ logistic records; and whether research was performed to correct
differences and abnormal balances. We also reviewed the adequacy of the
Naval Inventory Control Point management control program as it related to the
audit objective. Appendix A discusses the audit scope and methodology and our
review of the management control program.




                                  2
                   Reporting Abnormal Inventory Balances
                   The NAVICP reported $438 million of abnormal balances for inventory
                   in the March 31, 2001, MFCS general ledger for its Mechanicsburg and
                   Philadelphia sites. A review of $390.9 million of the $438 million
                   (89 percent) of abnormal balances showed that the abnormal balances
                   reviewed occurred because:

                       •    NAVICP had not established controls to periodically evaluate
                            historical financial inventory records to detect and correct
                            unusual, questionable conditions, or repetitive problem patterns
                            as required;

                       •    procedures for reconciling logistics and financial records for
                            inventory were performed at the summary level and were not
                            thorough enough to detect abnormal balances that occurred at the
                            detailed level; and

                       •    the reconciliation process matched financial records to the logistic
                            records and, thus, did not ensure accurate maintenance of
                            financial inventory records.

                   During the audit, command personnel at the Mechanicsburg and
                   Philadelphia sites took actions to correct $184.6 million of abnormal
                   balances for both the Inventory On-Hand and Inventory Work-In-
                   Process1 general ledger accounts. The remaining $253.4 million in
                   abnormal balances required extensive research to determine when and
                   how the abnormal balances occurred and, therefore, will need to be
                   corrected at a later date. Until improvements in the reconciliation and
                   internal controls are made, the problems will recur and can adversely
                   affect management decisions. The abnormal balances reported in the
                   MFCS may not materially affect the “net inventory” line item in the
                   FY 2001 financial statements because those abnormal balances are netted
                   against other positive balances for the total inventory line item.
                   However, detailed information, as shown in note 9A to the financial
                   statements, could be misstated.

Abnormal Inventory Balances
           The NAVICP Mechanicsburg and Philadelphia sites reported $438 million in
           abnormal inventory balances for the Inventory On-Hand general ledger account
           code (GLAC) 152131 and for the Inventory WIP GLAC 152321, 152322,
           152323, and 152324 as of March 31, 2001. Review of $390.9 million of the

1
    We use “Work-In-Process” interchangeably with “Held for Repair” inventory because report data is
    taken from the Navy accounting systems. The U.S. Government Standard General Ledger defines
    “Work-In-Process” as unfinished products during manufacturing and “Held for Repair” as finished
    inventory undergoing repair. However, the Navy accounting systems use the Inventory Work-In-
    Process account to include Inventory Held for Repair.

                                                    3
    $438 million in abnormal balances showed that $46.0 million had been recorded
    as abnormal balances prior to FY 1998 and the remaining $344.9 million were
    recorded as abnormal balances between FY 1998 and March 31, 2001, as shown
    in Table 1. We did not determine how long the remaining $47.1 million in
    abnormal balances had been reported. However, these abnormal balances will
    also have to be researched and resolved.

       Table 1. Results of the Review of $390.9 Million in Abnormal Balances
                                      (millions)

                        Mechanicsburg            Philadelphia       Combined Total

     Prior to 1998              $ 0.1                 $ 45.9                $ 46.0

     1998                         20.6                  10.6                  31.2

     1999                          7.1                 177.8                 184.9

     2000                          3.4                 114.3                 117.7

     2001                          2.1                    9.0                 11.1


     Total Reviewed              $33.3                $357.6                $390.9



    The normal balance for an account is always positive. However, if an account
    goes below $0 it becomes a negative balance and therefore is abnormal. An
    abnormal balance represents more decreases to an account than increases and
    generally indicates a reporting anomaly that requires explanation. If
    uncorrected, abnormal balances may distort the integrity of the financial
    information. Also, management decisions may be impaired if decisions are
    based on the accuracy of the reported balances.

Reasons for Abnormal Balances
    The lack of established controls to periodically evaluate historical financial
    inventory records to detect and correct unusual, questionable conditions or
    repetitive problem patterns in a timely manner was the primary cause of
    abnormal balances. Also, reconciliation procedures that were limited to the
    summary level did not identify and correct errors in the financial inventory
    records, which contributed to the continued reporting of abnormal balances in
    the MFCS.

    Compliance With Reconciliation Guidance. NAVICP Organizational Manual,
    March 18, 1998, requires the Inventory Accuracy Department to periodically
    evaluate historical financial inventory records for unusual, questionable
    conditions or repetitive problem patterns to resolve and document the reasons

                                         4
for the problems. As of March 31, 2001, the NAVICP’s financial records
reported $438 million in abnormal balances for the Inventory On-Hand and
Inventory WIP general ledger accounts managed by the Mechanicsburg and
Philadelphia sites. However, the NAVICP had not established adequate controls
to review the financial inventory records to identify and determine the specific
causes of the reported abnormal balances. According to NAVICP accounting
officials, the problem was recognized in prior fiscal years but they did not have
resources to investigate the problem. We agree that a comprehensive review of
historical financial data will require time and effort. However, the inability to
determine where, when, and how the problems occurred highlights the need for
continuous and timely review of abnormal and unusual account balances. Also,
researching the causes of abnormal balances becomes more difficult and time
consuming if errors go unresolved for long periods of time.
Reconciliation Procedures. DoD Regulation 7000.14-R, “Financial
Management Regulation,” volume 11B, “Reimbursable Operations, Policies and
Procedures-Working Capital Funds,” December 1994, chapter 55, requires that
inventory line item accountability records be reconciled to general ledger
inventory accounts on a quarterly basis. The regulation further states that
differences between inventory line item accountability records and general
ledger accounts shall be investigated to determine the cause(s) of the
differences. Both Mechanicsburg and Philadelphia performed monthly
reconciliations as required. However, improvements in the reconciliation
procedures were needed to ensure that abnormal balances or unusual balances in
the financial records were identified, detected, and corrected. The existing
reconciliation procedures were performed at the summary level and were not
thorough enough to detect the abnormal balances that occurred at the detailed
level.

For example, on March 31, 2001, the financial records showed that a total of
$3.9 million for Inventory WIP (GLAC 1523) was maintained at Lockheed
Martin commercial repair facility. During the reconciliation process, this
amount corresponded with the supply records; therefore, no action was taken.
However, further review of the financial records at the detailed level showed
that the $3.9 million for Inventory WIP (GLAC 1523) was the summation of
negative $4.9 million for Inventory WIP Contractor (GLAC 152322) and
$8.8 million for Inventory WIP Government (GLAC 152321). The $4.9 million
abnormal balance was not detected and corrected during the monthly
reconciliation because the reconciliation process did not take into account
information at the detailed level. Consequently, it was difficult to identify
abnormal balances. Table 2 provides an example of the deficiency in the
reconciliation procedures.




                                    5
     Table 2. Example of the Reconciliation for Inventory Work-In-Process

                                      Logistical Record          Financial Record


                                            Balance           Balance      GLAC            Balance
 Lockheed Martin – Alabama                 (million)         (million)                    Difference

 Inventory WIP – Government                                   $ 8.8        152321

 Inventory WIP – Contractor                                      (4.9)     152322

 Total Inventory WIP1                       $ 3.9             $ 3.9        1523               $0

 1
      Currently, the logistical data for the reconciliation process is not retrieved at the detailed
     level of Inventory WIP Government or Contractor. It is only extracted from the logistical
     records as total Inventory WIP, which makes it difficult to identify abnormal balances in the
     financial records at the detailed level.




Command personnel at both sites stated that abnormal balances continued for
long periods of time because current reconciliation procedures were only
concerned with the net value of the inventory balances. Also, they added that
the abnormal balances recorded in Inventory On-Hand (GLAC 152131) and
Inventory WIP (GLAC 152321, 152322, 152323 and 152324) had little impact
in the financial statements because those balances were netted against other
positive balances for the total inventory line item.

Matching Financial Records to Supply Records. The existing reconciliation
procedures were inadequate to detect abnormal balances or unusual balances
because the process matched financial records to supply records. To speed up
the reconciliation process, the Inventory Accuracy Department developed a
program to automatically match the financial record to the supply records. The
program compared the unreconciled Inventory On-Hand in the financial records
to the Master Item File of the supply records. If the financial records and
supply records each had different balances, the program would automatically
create an unreconciled balance value listing. Therefore, the accountants would
only need to research and resolve unreconciled balances generated by the
reconciliation program. However, if the amounts in both supply records and
financial records agreed, either positive or negative, the program would not
create an unreconciled balance. Accordingly, no reconciliation or action
appeared to be needed. As a result, abnormal balances could go undetected for
long periods of time. Table 3 shows an example of the reconciliation for the
Inventory On-Hand.




                                             6
                         Table 3. Example of Reconciliation for Inventory On-Hand

                                                 Logistical Record         Financial Record


                                                      Balance           Balance      GLAC           Balance
            Norfolk Naval Air Station                                                              Difference

            Total Inventory On-Hand                  $(12,238)         $(12,238)     152131            $01

             1.
                  No unreconciled balance was created because the financial record and the logistic record
                  agreed. Accordingly, the accountant did not review the $12,238 in abnormal balances.




Effects of Abnormal Balances
          Impact on Note 9A to the Financial Statements. Abnormal balances which
          occurred in the inventory subsidiary accounts of Inventory On-Hand and
          Inventory WIP had little impact on the net inventory line item because they
          could be netted against other positive balances. However, if the abnormal
          balances are not corrected, those balances, when shown in note 9A to the
          financial statements, could cause the amounts reported in Inventory WIP to be
          understated and the amounts reported in Inventory On-Hand to be overstated.
          For example, as of March 31, 2001, the financial records showed Inventory
          WIP-Government Furnished Material (GLAC 152324) had a negative balance of
          $170 million. During the audit, accounting personnel performed research and
          determined that the problem occurred because accounting personnel erroneously
          posted various transactions related to Inventory WIP-Government Furnished
          Material (GLAC 152324) to Inventory On-Hand (GLAC 152131). Those
          posting errors created $170.62 million in abnormal balances for GLAC 152324.
          Based on the results of the research, accounting personnel made a reversing
          entry to correct the errors. If these errors had not been corrected, FY 2001
          note 9A to the financial statements for the Inventory On-Hand (GLAC 152131)
          would have been overstated by $170.6 million, and Inventory WIP-Government
          Furnished Material (GLAC 152324) would have been understated by
          $170.6 million. The remaining $253.4 million in abnormal balances could have
          the same effect on note 9A if not corrected.

          Management Decisions. The abnormal balances reported in the MFCS can
          adversely affect other management decisions that are based on the accuracy of
          the reported balances. According to accounting officials at the Naval Supply
          System Command and NAVICP, the MFCS is widely used by various activities
          within the Naval Supply System Command and NAVICP for management

2
    The Abnormal balances reported in the MFCS for GLAC 152324 increased from $170 million on
    March 31, 2001 to $170.6 million on April 30, 2001.

                                                        7
    decisions, such as budgeting, accounting, or procuring inventory at the Navy
    depot levels. Therefore, inaccurate inventory balances impact the calculation of
    supply requirements and could adversely affect budgeting, accounting, and other
    management decisions.

Corrective Actions Taken by NAVICP
    After being informed of large abnormal balances, command personnel at
    Mechanicsburg and Philadelphia performed research, identified the reasons for
    some of the abnormal balances and successfully reduced the total from
    $438 million reported in the March 31, 2001, financial records to
    $253.4 million. The remaining $253.4 million in abnormal balances will
    require extensive research. Command personnel at both sites were unable to
    determine when and how the problems occurred because the problems had gone
    undetected for long periods of time.

    Also, to compensate for the constrained resources, the Inventory Accuracy
    Department has requested that the Fleet Material Support Office initiate a
    program that reports all credit balances monthly. This report will alert the
    reconciliation team to determine whether the abnormal balances must be
    researched and resolved. In addition, the NAVICP states in its FY 2001
    Management Control Evaluation that they will develop a plan to reconcile the
    existing backlog of on-hand ledgers with value less than zero; and review,
    identify and resolve any new occurrences on a monthly basis.

Conclusion
    The inability to detect and correct the $438 million in abnormal balances for
    long periods of time highlights the need for continuous and timely review of
    financial inventory records for credit and unusual account balances. A timely
    review of abnormal and unusual account balances is needed because researching
    the causes of abnormal balances is difficult and time consuming if errors go
    unresolved for long periods of time. Abnormal balances reported in the MFCS
    did not appear to impact the net inventory line item in the FY 2001 financial
    statements because those abnormal balances are netted against other positive
    balances. However, detailed information as shown in note 9A to the financial
    statements could be misstated. Also, allowing the abnormal balances to go
    uncorrected can adversely affect management decisions that are based on the
    accuracy of the reported balances. Considering the magnitude of the
    $438 million in abnormal balances, we believe that the NAVICP should revise
    its policy on the reconciliation procedures to ensure that the reconciliation is
    performed at the detailed transaction levels and not just the summary levels.
    Also, the revised policy should emphasize the need to evaluate historical
    financial inventory statistics for unusual or questionable conditions such as
    credit balances, abnormal charges, and ledgers without activity.




                                        8
Recommendations
    We recommend that the Commander, Naval Supply Systems Command:

            1. Establish appropriate controls to ensure that financial inventory
    records are periodically evaluated for unusual or questionable conditions such as
    credit balances, abnormal charges, ledgers without activity, or repetitive
    problem patterns.

           2. Revise the current reconciliation procedures to require accountants to
    reconcile at the summary and detail account levels.

           3. Review and determine the staff necessary to fully implement the
    revised reconciliation procedures.

          4. Complete and fully document the corrective actions for the remaining
    abnormal balances.



Management Comments Required
    The Commander, Naval Systems Supply Command, did not comment on this
    report. We request that the Commander provide comments on the final report.




                                        9
Appendix A. Audit Process

Scope
    We reviewed the procedures and controls used by the NAVICP to account for
    the inventory balances recorded in the MFCS. Specifically, we reviewed the
    $438 million of abnormal balances reported for Inventory On Hand GLAC
    152131, and Inventory WIP GLAC 152321, 152322, 152323, and 152324 in the
    March 31, 2001, MFCS. As of March 31, 2001, the NAVICP reported
    approximately $32.8 billion (standard price) for the inventory of reparable and
    consumable items. We reviewed the reconciliation procedures and initiatives
    made by the Naval Inventory Control Point accounting personnel to research
    and correct the abnormal balances. We also reviewed the adequacy and the
    completeness of the current reconciliation procedures.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the financial management high-risk area.

Methodology
    We reviewed applicable laws, policies, procedures, and regulations related to
    the controls over inventory balances reported in the supply system and in the
    financial system. We reviewed $390.9 million of the $438 million of abnormal
    balance reported in the March 31, 2001, MFCS general ledger for the
    Mechanicsburg and Philadelphia sites to determine where, when, and how the
    abnormal balances occurred. We reviewed the Naval Inventory Control Point
    reconciliation procedures to determine whether the reconciliation procedures
    were performed in accordance with applicable guidance and the reasons why the
    abnormal balances were not identified and corrected. Also, we visited,
    performed audit work, and held discussions with personnel responsible for the
    accuracy of the inventory information at Naval Inventory Control Point,
    Mechanicsburg and Philadelphia.

    Use of Computer-Processed Data. We relied on computer-processed data
    from the Uniform Inventory Control Program System, and the Material
    Financial Control System to conduct this audit without testing the reliability of
    the data. Also, we did not perform tests of the system’s general and
    applications controls. Because we did not attest to the accuracy of the inventory
    balances, our use of the data did not affect the results of the audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from May 2001 through October 2001 in accordance with generally accepted
    Government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in DoD. Further details are available on request.


                                       10
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provide reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the NAVICP management controls over supply/financial
    reconciliation. Specifically, we reviewed NAVICP management controls over
    detecting, researching, and correcting abnormal inventory balances. Our review
    involved reviewing management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for NAVICP as defined by DoD Instruction 5010.40.
    NAVICP Inventory Accuracy Department management controls were not
    adequate to ensure that abnormal balances are detected, researched, and
    corrected in a timely manner. The financial reconciliation process was designed
    to detect errors at the summary levels for Inventory On-Hand and Inventory
    WIP accounts. This process does not always identify abnormal balances at the
    detailed levels. Also, the Inventory Accuracy Department did not periodically
    evaluate historical financial records for unusual and questionable conditions as
    required. Recommendations 1 and 2, if implemented, will improve procedures
    to identify abnormal balances. A copy of the report will be provided to the
    senior official in charge of management controls for the NAVICP.

    Adequacy of Management’s Self-Evaluation. NAVICP Inventory Accuracy
    Department management identified supply and financial reconciliation as an
    assessable unit. The organization no longer identifies the level of risk.
    However, the organization did state in its FY2001 Management Control
    Evaluation that controls were not adequate in identifying abnormal balances in a
    timely manner.

Prior Coverage
    No prior coverage has been conducted in the specific subject of this audit.
    However, the General Accounting Office; the Inspector General, DoD; and the
    Naval Audit Service have conducted multiple reviews related to the inventory
    issues. General Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports. Naval Audit Service reports
    can be accessed on the internet at http://www.hq.mil/navalaudit.




                                       11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Controller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Supply Systems Command
  Commander, Naval Inventory Control Point, Philadelphia
  Director, Naval Inventory Control Point, Mechanicsburg

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service, Cleveland

Non-Defense Federal Organization
Office of Management and Budget




                                           12
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International
   Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
   Government Reform




                                         13
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Marvin L. Peek
Hoa H. Pham
Vanessa S. Adams
Brian Benner
Lashonda Thompson
Melanie Ulloa
